             OFFICE OF
      THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION

    SALINA EMERGENCY-AID FOOD BANK,
A FEE-FOR-SERVICE REPRESENTATIVE PAYEE
FOR THE SOCIAL SECURITY ADMINISTRATION

        July 2009   A-07-09-19065




   AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      July 29, 2009                                                                       Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
            Kansas City

From:      Inspector General

Subject:   Salina Emergency-Aid Food Bank, A Fee-for-Service Representative Payee for the
           Social Security Administration (A-07-09-19065)


           OBJECTIVE

           Our objectives were to determine whether this fee-for-service representative payee for
           the Social Security Administration (SSA) (1) had effective safeguards over the receipt
           and disbursement of Social Security benefits, (2) used and accounted for Social
           Security benefits in accordance with SSA’s policies and procedures, and (3) adequately
           protected the beneficiaries’ personally identifiable information (PII). In addition, we
           quantified the amount of SSA funds stolen by a former employee of the representative
           payee.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted SSA the
           authority to appoint representative payees to receive and manage these beneficiaries’
           payments from the Old-Age, Survivors and Disability Insurance (OASDI) and
           Supplemental Security Income (SSI) programs. 1 A representative payee may be an
           individual or an organization. SSA’s regulations indicate the Agency will select
           representative payees for beneficiaries when representative payments would serve the
           individuals’ interests. 2 Representative payees are responsible for managing benefits in
           the best interest of the beneficiary. 3 See Appendix B for additional representative
           payee responsibilities.

           1
               Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
           2
               20 C.F.R. §§ 404.2001(a) and (b)(2) and 416.601(a) and (b)(2).
           3
             We use the term “benefits” to refer to OASDI benefits and SSI payments. Likewise, we use the term
           “beneficiaries” to refer to OASDI beneficiaries and SSI recipients.
Page 2 – Michael W. Grochowski

The Salina Emergency-Aid Food Bank (SFB) is a fee-for-service organization in Salina,
Kansas. The representative payee is a nonprofit social service agency that received
benefits under SSA’s OASDI and SSI programs on behalf of 105 adults from
March 1, 2007 through February 29, 2008. SSA’s Kansas City Regional Office
requested an audit of the representative payee because of a former employee’s theft of
Social Security funds. See Appendix C for the scope and methodology of our review.

RESULTS OF REVIEW
We found that SFB did not have effective safeguards over the disbursement of Social
Security benefits. Specifically, SFB did not

    •   maintain documentation to support how most of the beneficiaries’ funds were
        used, or
    •   have adequate segregation of duties in approving, recording, processing, and
        reviewing financial transactions on behalf of beneficiaries.

We also found that SFB did not use and account for Social Security benefits in
accordance with SSA’s policies and procedures. Specifically, SFB did not

    •   report changes in the circumstances of two SSI recipients in a timely manner,
        which resulted in $9,016 in overpayments, or
    •   properly disburse $1,143 in conserved funds for two beneficiaries.

Further, we found that improvements were needed in SFB’s controls for physically
securing beneficiaries’ PII and financial records. Finally, we quantified the amount of
funds stolen by a former SFB employee.

SAFEGUARDS FOR THE DISBURSEMENT OF BENEFITS

We found SFB did not have adequate internal controls for the disbursement of Social
Security benefits. Specifically, SFB did not maintain supporting documentation that
would account for most of the expenditures of beneficiaries’ funds. In addition, SFB did
not have adequate segregation of duties in the disbursement of beneficiaries’ funds.

Supporting Documentation

We found SFB did not maintain receipts or other documentation to support how
52 percent of the total expenditure of beneficiaries’ funds was spent. Specifically, of
the $367,208 expended, SFB did not have receipts or other supporting documentation 4



4
 Missing documentation included lease agreements and care facility agreements, receipts for personal
allowances, food, clothing, personal care and other expenses.
Page 3 – Michael W. Grochowski

for $190,940. 5 We found that 48 percent of expenditures supported by receipts was for
the beneficiaries’ needs. For the $190,940 not supported by receipts, we examined
SFB’s check register transactions and bank account statements to identify the purpose
of the expenditures. The check registers and bank account statements provided
expense information for what appeared to be legitimate purposes, such as rent, utilities
and miscellaneous items. Although we cannot confirm how these funds were actually
expended without receipts, nothing came to our attention during our examination of the
check registers and bank statements that led us to believe the expenditures were not
for the beneficiaries’ needs. Further, our interviews with 10 Social Security
beneficiaries did not disclose any concerns that led us to believe the beneficiaries’
needs were not being met.

In addition, we found about $77,000 (40 percent) of the undocumented $190,940 was
disbursed to beneficiaries in personal allowance checks. We learned that SFB stopped
                                                                                         6
collecting receipts for personal allowance funds after SSA’s 2006 triennial site review.
According to SFB, SSA informed it that receipts did not have to be maintained for
personal allowances. We informed SFB that this is contrary to SSA’s policy of keeping
accurate and complete records to show how benefits are used. 7 SFB stated it would
resume collecting receipts.

SFB should maintain receipts, canceled checks, bills, bank statements and other
applicable documentation to show that Social Security benefits were spent for the
beneficiaries’ needs. Maintenance of this documentation is a safeguard the
representative payee must have in place for all beneficiary expenditures regardless of
                    8
the monetary value. Accordingly, SSA should also remind the triennial review teams
about the importance of the representative payee’s responsibility to maintain accurate
and complete records, including documentation for all expenditures.

Segregation of Duties

SFB did not have adequate segregation of duties in the disbursement of Social Security
funds. Specifically, each of the two employees in SFB’s representative payee program
had complete oversight of a group of beneficiaries. The same person approved a
disbursement; recorded the transaction; wrote, signed and issued the check; and later



5
 This amount does not include $2,640 that was stolen from one beneficiary (see “Employee Theft” section
of this report).
6
 Once every 3 years, SSA performs site reviews of some representative payees, such as fee-for-service
organizations, to determine whether the representative payees are meeting their responsibilities.
7
    SSA, POMS, GN 00502.113.C.1 and D.3.b.
8
  SSA regulations indicate that representative payees must account for the use of benefits, should keep
records of how benefits were used to complete accounting reports, and must make those records
available upon SSA’s request. 20 C.F.R. §§ 404.2065 and 416.665.
Page 4 – Michael W. Grochowski

reconciled the bank statement. The lack of segregation of duties gave a former
employee the opportunity to steal a beneficiary’s funds (see “Employee Theft” section
of this report).
                                                                    9
No one person should control all aspects of financial transactions. Adequate
segregation of duties ensures that key duties and responsibilities are divided among
different people to reduce the risk of error, misuse and/or fraud. The limited number of
staff in SFB’s representative payee program makes total segregation of duties difficult
to achieve, but compensating controls could be instituted. For example, after the audit
period, SFB improved the reconciliation process by having two other individuals
randomly select bank reconciliations every month to verify their accuracy. However,
additional improvements could strengthen SFB’s internal controls, such as approval and
review procedures for personal allowance checks and for checks over a designated
threshold amount. SSA guidance is needed to assist SFB in establishing segregation
of duties and additional compensating controls.

USE AND ACCOUNTING FOR BENEFITS

We found that SFB did not use and account for Social Security benefits in accordance
with SSA’s policies and procedures. Specifically, SFB did not timely report other
sources of income received by two SSI recipients, which affected their eligibility for
payments. In addition, conserved funds were not properly disbursed on behalf of two
recipients.

SSI Eligibility

Our interviews with 10 beneficiaries disclosed that 2 had sources of income other than
SSI, which SFB did not timely report to SSA. We referred these cases to SSA for SSI
eligibility determinations. SSA found that one beneficiary was overpaid $2,072 and will
receive a reduced monthly SSI payment. SSA found that the other beneficiary was
ineligible for SSI and had been overpaid $6,944. 10




9
  General Accounting Office (now known as the Government Accountability Office [GAO]), Standards for
Internal Control in the Federal Government, AIMD-00-21.3.1, pp. 12, 14; SSA, Best Practices for
Maintaining an Effective Representative Payee Accounting System - Separation of Employee Duties.
10
  Two remittances, totaling $6,944, were posted by SSA in the beneficiary’s SSI record on April 1, 2009,
which resolved the overpayment.
Page 5 – Michael W. Grochowski

To be eligible for SSI payments, an individual’s resources cannot exceed $3,000 for a
                                                11
married couple and $2,000 for a single person. Representative payees are
responsible for promptly reporting to SSA changes in a beneficiary’s circumstances,
such as additional income or assets. 12 Without timely notification of changes in a
beneficiary’s circumstances, SSA cannot adjust payment amounts to avoid
overpayments.

Conserved Funds

Conserved funds totaling $1,143 were not properly disbursed on behalf of
two beneficiaries. For one beneficiary, who was given a new representative payee,
SFB sent conserved funds to the successor representative payee instead of returning
the funds to SSA. For the second beneficiary, who was deceased, SFB sent conserved
funds to SSA instead of to the beneficiary’s estate.

SSA requires that representative payees return conserved or unused funds to SSA
when their representative payee services are terminated or are no longer required.
SSA then reissues the funds to the successor representative payee or the beneficiary in
               13
direct payment. If a beneficiary dies, SSA requires that the representative payee
send conserved funds to the legal representative of the beneficiary’s estate because
SSA is not responsible for deciding who is entitled to the estate funds. 14

PROTECTION OF PII

We found SFB did not have adequate physical security controls to restrict unauthorized
access to beneficiaries’ records and assets. SFB maintained a separate folder for each
beneficiary with checkbooks, financial information, and other PII. The folders were
stored in two file cabinets in the conference room. The file cabinets remained
unlocked, which allowed access to the beneficiaries’ files at all times.

Physical control and access restrictions over beneficiaries’ sensitive financial
information and PII are essential internal controls to reduce the risk of loss and
                   15
unauthorized use. By not maintaining adequate safeguards over the beneficiaries’
financial information and PII, SFB increased the risk of loss or unauthorized use of the
information.


11
     20 C.F.R. § 416.1205; SSA, POMS SI 01110.003.A.2.
12
  20 C.F.R. §§ 416.635(d), 416.708(c) and (d), and 404.2035(d); SSA, POMS, GN 00502.113.C.1; SSA,
A Guide for Representative Payees (No. 05-10076), pp.17-18, January 2009.
13
  SSA, POMS, GN 00603.055.A, GN 00502.113.C.1; SSA, A Guide for Representative Payees
(No. 05-10076), p. 19, January 2009.
14
     SSA, POMS, GN 00603.100.B.2.
15
     GAO, AIMD-00-21.3.1, supra, pp. 12, 14 and 15.
Page 6 – Michael W. Grochowski

EMPLOYEE THEFT

A former employee in SFB’s representative payee program stole $2,640 from an SSA
beneficiary during the audit period. SFB discovered the theft shortly after the employee
was fired for not paying beneficiaries’ bills timely and not reconciling the monthly bank
statements. SFB determined the amount of the stolen funds and restored the funds to
the beneficiary. The former employee pled guilty to theft in the State’s district court and
was ordered to pay restitution to SFB.

We quantified the amount of stolen funds, compared it to SFB’s amount, and found no
material difference. We also examined the financial records of the remaining
beneficiaries for whom the former employee was responsible and did not find any other
indications of misuse or fraud.

CONCLUSION AND RECOMMENDATIONS

We found that SFB did not (1) effectively safeguard the disbursement of Social Security
benefits, (2) use and account for benefits in accordance with SSA’s policies and
procedures, or (3) adequately protect beneficiaries’ PII.

We recommend that SSA instruct SFB to:

1. Maintain sufficient documentation to show that Social Security benefits are used in
   the best interest of the beneficiaries.

2. Ensure adequate segregation of duties is in place for the disbursement of benefits,
   including appropriate compensating controls to monitor the disbursement of
   beneficiaries’ funds.

3. Report changes in a beneficiary’s circumstances to SSA timely.

4. Return conserved funds according to SSA’s instructions.

5. Implement physical security controls to safeguard beneficiaries’ financial records
   and PII.

In addition, we recommend that SSA:

6. Remind the triennial site review teams of the representative payee’s responsibility to
   maintain complete and accurate records so the payee can account for how Social
   Security benefits are used.
Page 7 – Michael W. Grochowski

AGENCY COMMENTS
SSA agreed with our recommendations (see Appendix D).

SFB COMMENTS

SFB stated that it took corrective actions on our recommendations.




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
GAO      Government Accountability Office
OASDI    Old-Age, Survivors and Disability Insurance
PII      Personally Identifiable Information
POMS     Program Operations Manual System
SFB      Salina Emergency-Aid Food Bank
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include the following. 1

     Determine the beneficiary’s current needs for day-to-day living and use his or her
      payments to meet those needs.

     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

     Maintain accounting records of how the benefits are received and used.

     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount.

     Report any changes in circumstances that would affect their performance as a
      representative payee.

     Provide SSA an annual Representative Payee Accounting Report to account for
      benefits spent and invested.

     Return any payments to SSA for which the beneficiary is not entitled.

     Return conserved funds to SSA when no longer serving as the representative payee
      for the beneficiary.

     Be aware of any other income Supplemental Security Income recipients may have
      and monitor their conserved funds to ensure they do not exceed resource limits.




1
    20 C.F.R. § 404, subpart U, and § 416, subpart F.
                                                                                   Appendix C

Scope and Methodology
Our audit covered the period March 1, 2007 through February 29, 2008. To accomplish
our objectives, we:

•   Reviewed applicable Federal laws and regulations as well as Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.

•   Reviewed prior work performed by the Office of the Inspector General and SSA in
    the representative payee area.

•   Contacted the SSA Kansas City Regional Office and the Salina, Kansas, field office
    to obtain background information and prior audits regarding the Salina Emergency-
    Aid Food Bank (SFB).

•   Compared and reconciled the payee’s list of SSA beneficiaries in SFB’s care to a list
    obtained from SSA’s Representative Payee System. We tested certain data
    elements generated from this system for completeness, accuracy, and validity. We
    determined the data were sufficiently reliable for the purposes of this audit.

•   Reviewed SFB’s internal controls over the receipt and disbursement of Social
    Security benefits.

•   Selected a sample of 50 beneficiaries 1 in the representative payee’s care during the
    audit period and performed the following tests.

       Compared and reconciled benefit amounts received according to SFB’s records
        to benefit amounts paid according to SSA’s records.
       Reviewed SFB’s accounting records to determine whether benefits were properly
        spent or conserved on the individual’s behalf.
       Traced a sample of recorded expenses to source documents (72 canceled
        checks) and examined the documentation for reasonableness and authenticity.
       Reconciled bank records and SFB’s records for three judgmentally selected
        beneficiaries.

•   Interviewed a sample of 10 beneficiaries to determine whether their basic needs
    were being met and observed their living conditions.


1
 We selected (1) the 32 beneficiaries who were the responsibility of the employee who stole Social
Security funds from a beneficiary during the audit period and (2) a random sample of 18 beneficiaries who
were the responsibility of the other employee working in SFB’s representative payee program.


                                                   C-1
•   Quantified the amount of Social Security funds stolen by an employee in SFB’s
    representative payee program during the audit period.

•   Reviewed the current Representative Payee Accounting Reports for 25 of the
    50 beneficiaries in the sample to determine whether SFB properly reported to SSA
    how benefits were used.

We performed our fieldwork for this review in Salina, Kansas, and Kansas City,
Missouri, between September 2008 and February 2009. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                          C-2
                                                                          Appendix D

Agency Comments


5/29/2009

FROM:        Audit Liaison for Operations

SUBJECT:     OIG Draft Report - Salina Food Bank - A Fee-for-Service Representative
Payee
Thank you for the opportunity to comment on the draft OIG Report on Salina Food Bank.
The Kansas City Region agrees with the OIG recommendations and dollar amounts defined
in this report. The servicing field office will continue working with the Salina Food Bank to
ensure all recommendations are implemented and to educate them on Social Security’s
policies for fee-for-service representative payees. In addition the Regional Office will issue
a reminder to the SSA representatives conducting expanded monitoring reviews regarding a
payee’s responsibility to maintain complete and accurate records so they can provide Social
Security accountings for how Social Security benefits and Supplemental Security Income
payments are used.
If you have questions, you may contact Kathy Woolsey at 816-936-5630. If members of
your staff need additional assistance or information, they may contact Kathy Smith, Center
for Programs Support, at 816-936-5643.
Thank you,

Tracie Carter
Audit Liaison for Operations
DCO, OPSOS, DOACS
(410) 965-1886
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments

OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division

Acknowledgments

In addition to those named above:

   Carol Cockrell, Evaluator

   Ken Bennett, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-07-09-19065.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
